HHS/OIG-Audit--"Review of Selected Part B Medicare Secondary Payer Activities at Blue Shield of Florida, (A-04-91-02004)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Selected Part B Medicare Secondary Payer Activities at Blue Shield of Florida," (A-04-91-02004)
April 17, 1992
Complete
Text of Report is available in PDF format (1.43 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that reduced funding for Medicare secondary payer (MSP) activities resulted in Blue Shield of Florida
(BSF) not pursuing, for recovery, previously identified MSP overpayments. We also noted that due to an increase in the
Medicare Part B claims threshold, potential MSP cases are not being identified. As a result, claims totaling $24.3 million
were paid for beneficiaries who, according to BSF records, were known to have other insurance coverage. We also identified
an estimated $2.6 million of improper primary payments for which BSF was notified by providers, insurers, and beneficiaries
that improper payments were made. In addition to financial adjustments, we recommended that the Health Care Financing Administration
pursue alternative funding strategies to provide the needed resources to identify and recover the improper payments.